W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1350

Go New York Tours, Inc.

Gray Line New York Tours, Inc., et al
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Gray Line New York Tours, Inc., Twin America, LLC, Sightseeing Pass LLC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

/s/ Jonathan Jacobson

Date:

March 29, 2021

(Type or print) Name

Jonathan Jacobson
Mr.

Ms.

Mrs.

Firm

Wilson Sonsini Goodrich & Rosati PC

Address

1301 Avenue of the Americas - 40th Floor

City & State

New York, NY

Phone

212-497-7758

Miss

Zip 10019
Email

jjacobson@wsgr.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

MAURICE N. ROSS
BARTON LLP
711 Third Avenue, 14th Floor
New York, New York 10017

